DOE/IG-0423




         AUDIT
        REPORT

                                        REVIEW OF THE
                                U.S. DEPARTMENT OF ENERGY'S
                                 INFORMATION MANAGEMENT
                                          SYSTEMS




                                           AUGUST 1998




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                            August 10, 1998


MEMORANDUM FOR THE SECRETARY

FROM:          Gregory H. Friedman
               Acting Inspector General

SUBJECT:       INFORMATION: Audit Report on "Review of the U.S. Department of
               Energy's Information Management Systems"

BACKGROUND

The Federal emphasis on reinventing Government and the end of the Cold War have driven change at
the Department of Energy. In the midst of this change, the Department’s Information Architecture
Program was initiated. Over the past several years, the Department realized that information
management and strategic planning efforts must focus on the utility and management of information,
rather than management of technology. The importance of an information architecture was also
recognized by Congress through the Clinger-Cohen Act of 1996. This law required the establishment of
a Chief Information Officer position in each Federal agency with the responsibility to develop and
implement an integrated information architecture. The objective of this audit was to determine whether
the Department had developed and implemented an Information Technology Architecture.

RESULTS OF AUDIT

The Department had not developed and implemented an Information Technology Architecture.
Although a key goal of the Department’s 1997 Strategic Plan was implementing a Departmentwide
information architecture by January 1998, this goal was not achieved. Integral to architecture
implementation is the need for Headquarters program offices to develop and implement their own
information architectures. However, only one program office had initiated a development effort in
Fiscal Year (FY) 1997. Continued delays could adversely affect the successful attainment of a strategic
goal for $100 million in cost avoidances. Fully defined and implemented Departmentwide and program
office architectures are needed if the Department is to assure that the Headquarters information
management budget of $125 million for FY 1998 is not spent to develop and operate duplicative and
overlapping information systems.

MANAGEMENT REACTION

Your office and the Acting Chief Information Officer prepared a joint management response to our
report. The response indicated general concurrence with the points and recommendations made. You
stated that this audit will assist the Department to achieve a higher degree of attention for its
Information Architecture and persuade the programs and sites to properly design and align their business
and information systems. The joint response also took the position that because significant events
occurred after audit fieldwork was completed, the report's finding did not constitute a material internal
control weakness.

Attachment

cc: Deputy Secretary
    Under Secretary
REVIEW OF THE U.S. DEPARTMENT OF ENERGY'S INFORMATION
MANAGEMENT SYSTEMS




TABLE OF
CONTENTS



                Overview

                Department of Energy's Information Management Systems .............................1


                Control of Information Management Systems

                Details of Finding............................................................................................3

                Recommendations and Comments...................................................................8


                Appendices

                1. Scope and Methodology .........................................................................11

                2. Past Audits Relating To Information Management Systems .....................12

                3. FY 1998 Program Office Information Management Budgets ...................13

                4. Acting Secretary Comments ....................................................................14
Overview

INTRODUCTION AND   Historically, the Department of Energy (Department) and its predecessor
OBJECTIVE          agencies planned, acquired, and implemented information technologies
                   in a decentralized manner. This was done without a comprehensive
                   method to address the overall information requirements of Departmental
                   management, the integration of equipment and business processes,
                   duplication of efforts, and corporate information resources. In 1997, the
                   Department identified the development and implementation of
                   Departmental and programmatic information architectures as a key goal.
                   The Department sought to meet management information needs and
                   avoid duplicative and redundant information systems through
                   development and implementation of an integrated information
                   management planning process.

                   An information technology architecture is a blueprint used to guide and
                   constrain the development and evolution of information management
                   systems. The architecture provides a high-level description of an
                   organizational mission, the business functions being performed to
                   accomplish that mission, the relationships among these functions, and
                   the information needed to perform the functions. The architecture also
                   provides the rules and standards needed to ensure that interrelated
                   systems are built so they can exchange information, use various software
                   designs, and reduce maintenance requirements.

                   The development and implementation of an information technology
                   architecture is especially important to the Department because of its
                   large investment in information systems. The Department’s Fiscal Year
                   (FY) 1998 budget request for information management was $1.5 billion.
                   Of this amount, the budget for Headquarters elements was $125 million
                   with over 95 percent of the funding spent on administrative systems.
                   Information management budgets for field sites, including management
                   and operating contractors, comprised the remaining amount. In a
                   December 1996 report to the Office of Management and Budget
                   (OMB), the Department identified that it had 29 major information
                   systems. OMB policy requires that Departmental investments in major
                   information systems must, among other things, be consistent with the
                   agency’s information architectures.

                   The Department documented its commitment to an integrated
                   information architecture in its Strategic Plan, issued September 1997. A
                   key goal of the plan was the implementation of a Departmentwide
                   information architecture by January 1998. Through accomplishment of
                   this goal, the Department was committed to avoiding $100 million in
                   information technology expenditures over the subsequent 5-year period.

Page 1                                              Department of Energy's Information
                                                                Management Systems
                  The objective of the audit was to determine whether the Department had
                  developed and implemented an Information Technology Architecture.


CONCLUSIONS AND   The Department's Strategic Plan called for the implementation of a
OBSERVATIONS      Departmentwide Information Technology Architecture by January 1998.
                  However, the Department did not attain this goal, and only one program
                  office initiated an architecture development effort during FY 1997.
                  There was little apparent support for the development and imple-
                  mentation of the Departmentwide and program office architectures.
                  Continued delays could adversely affect the successful attainment of the
                  Department’s strategic goal for $100 million in cost avoidances. Also,
                  without program office support, the Department has little assurance that
                  the Headquarters FY 1998 information management budget of $125
                  million will not be spent on duplicative and overlapping information
                  systems.

                  Effective October 1, 1998, the Government Performance and Results
                  Act of 1993 requires the Department to prepare performance plans that
                  complement the Strategic Plan. These plans will set annual goals with
                  measurable target levels of performance and require an annual program
                  performance report to Congress that compares actual performance to
                  the annual goals. Accordingly, the implementation of an Information
                  Technology Architecture and achievement of associated cost savings
                  will be a key performance measure reported to the Congress.

                  The audit identified a material internal control weakness that
                  management should consider when preparing its yearend assurance
                  memorandum on internal controls.




                                                       _______/s/______________
                                                       Office of Inspector General




Page 2                                            Department of Energy's Information
                                                              Management Systems
CONTROL OF INFORMATION MANAGEMENT SYSTEMS

Information Architecture   The Department had not developed and implemented an Information
Development and            Technology Architecture (ITA) although its Strategic Plan called for the
Implementation             implementation of a Departmentwide information architecture with
                           supporting standards by January 1998. An ITA is necessary to properly
                           manage and control future systems development efforts. As of March
                           1998, the Department had not approved a fully defined Departmentwide
                           architecture and was not planning to complete implementation until FY
                           2000 at the earliest. We found that the Department's success in
                           implementing a Departmentwide ITA depends on the timeliness and
                           effectiveness of Departmental programs developing and implementing
                           their own ITAs. As of January 1998, only one program office had
                           initiated action to develop an ITA.

                                        Information Systems Management and Control

                           The Department operates numerous, independent systems for meeting
                           program office needs in the same functional area. For example, in the
                           administrative area, the Department operates systems for accounting,
                           budgeting, human resources, procurement, property management, and
                           performance measures. These systems are maintained by separate
                           organizational entities responsible for the respective functions these
                           systems support. The Departmental Integrated Standardized Core
                           Accounting System is operated by the Office of Chief Financial Officer,
                           the Assistant Secretary for Human Resources and Administration
                           operates the Procurement and Assistance Data System, and the Facility
                           Information Management System is operated by the Office of Field
                           Management. Replacement systems were under development or planned
                           for these systems with little consideration on how they would integrate
                           with other major business systems. A Departmental Financial
                           Information Management report, issued May 1995, recommended that
                           to properly manage and control future business systems development
                           efforts which assure full integration, it was imperative that an
                           Information Architecture Plan be developed for the Department.

                           In December 1995, the Department described its then current defacto
                           architecture, acknowledging that there was functional duplication and
                           redundancy of Departmentwide information systems. Specifically, the
                           Department stated that unnecessary duplication of systems and
                           processes existed at the local, intermediate processing and corporate
                           system levels and that systems required data architecture coordination.
                           For example, in its internal report, the Department concluded that 21
                           desktop applications used for personnel activities seemed excessive.


Page 3                                                                          Details of Finding
                            Further, the Department found that there were redundancies in several
                            administrative applications such as eight applications for tracking
                            Headquarters procurement actions and requisitions, and six mail/label
                            applications.

                                                  ITA Implementation Efforts

                            The Department started work on the definition phase of an ITA in
                            October 1994, which resulted in the adoption of an approach and
                            guiding principles for developing an architecture. In April 1997, the
                            Department issued guidance for implementing information architectures.
                            The guidance indicated that programs are required to develop
                            information architectures for all systems that support Departmental
                            information needs. Further, in February 1998, the Department issued a
                            draft vision for a Departmentwide architecture. The vision presents a
                            target ITA towards which all Departmental organizations and activities
                            can aim. This document describes how technology may be implemented
                            within the Department over the next 7 years to dramatically improve the
                            ways business is conducted. Approval of the ITA vision will complete
                            the definition phase of the Departmentwide architecture. At the time
                            our audit field work was completed, the draft vision had not been
                            approved and issued by the Department.

                            According to guidance issued by the Chief Information Officer (CIO),
                            programs are required to develop information architectures for their
                            systems that support Departmental information needs. The Secretary of
                            Energy had reported to OMB in December 1996 that assessing and
                            integrating program office and site ITAs into the Departmental
                            Information Architecture was a critical follow-on issue for the ITA
                            program. However, by the end of FY 1997, only one Headquarters
                            program office had initiated an information architecture.


Information Technology      The Clinger-Cohen Act of 1996 required each agency to establish the
Architecture Requirements   position of CIO reporting directly to the agency head. The CIO is
                            responsible for developing, maintaining, and facilitating the
                            implementation of a sound and integrated ITA. The CIO is expected to
                            work with the agency head and senior program managers to implement
                            effective information management that achieves the agency's strategic
                            goals. The Act envisions the CIO with a critical leadership role in this
                            relationship. The Department reinforced the CIO's information
                            architecture management responsibilities in DOE Order 200.1,
                            "Information Management Program," issued September 30, 1996.

Page 4                                                                           Details of Finding
                          OMB has issued several policies to Federal agencies concerning
                          implementation of the Act. In October 1996, OMB issued Policy
                          Memorandum M-97-02, "Funding Information System Investments,"
                          that set forth criteria for making investments in major information
                          systems. One such criterion specifically requires agency information
                          systems proposed for funding to be consistent with Federal, agency,
                          and bureau information architectures. This criterion establishes the
                          critical link between systems planning and implementation of an
                          information architecture that is designed to align technology
                          requirements with Departmental missions and goals.

                          Another OMB Policy Memorandum, M-97-16, "Information
                          Technology Architectures," issued in June 1997, provided guidance on
                          the development and implementation of an ITA. This policy directed
                          agencies to be prepared to indicate the status of the development,
                          implementation, and maintenance of the agency ITA during the
                          formulation of the FY 1999 budget. OMB concluded that successful
                          implementation of an ITA was essential if Departments were to meet
                          the goals of the Clinger-Cohen Act.


Departmental Support Of   Information architecture initiatives have not received the kind of
The ITA Initiative        Departmental support needed to ensure timely and successful
                          implementation.

                                            ITA Needs Organizational Support

                          Organizational support was not present at various levels. The CIO
                          lacked the authority and resources necessary to ensure development of
                          information architectures at the program office level which form the
                          building blocks of a Departmental architecture. Additionally,
                          information architecture development and implementation efforts did
                          not receive the kind of support from the program offices and the
                          Executive Committee for Information Management (Executive
                          Committee) that is needed to complete such a task in an agency as
                          complex and system dependent as the Department of Energy.

                          Office of Chief Information Officer

                          The CIO reports to the Assistant Secretary for Human Resources and
                          Administration and is a non-voting member of the Executive
                          Committee. However, in July 1997, the Deputy Director for OMB


Page 5                                                                         Details of Finding
         expressed concerns about the placement and authority of the CIO within
         the Department's organizational structure. One concern was that the
         CIO did not report directly to the Chief Operating Officer, which
         significantly reduced the CIO's ability to impact the management of the
         information technology function at the Department, including the
         implementation of an ITA. The Deputy Director also concluded that the
         CIO, as a non-voting member of the Executive Committee for
         Information Management, had very little clout in decisions affecting the
         effective management of the agency information technology resources.
         OMB believed that until the CIO had a seat at the budget table with
         Executive Committee members, "... the CIO (position) will not have
         any teeth." The Department has proposed to have the CIO report to the
         Deputy Secretary and be a voting member of the Executive Committee,
         but had not approved the changes as of April 3, 1998.

         Program Offices

         Program offices also did not provide the support necessary for a Depart-
         mental information architecture. To illustrate, the Department's
         Information Architecture Program Manager within the Architecture,
         Standards, and Information Security Group of the CIO's office told us
         that some major program offices have not been proactive, and there was
         a high risk of failure for program ITAs, unless the major program offices
         recognized the need to align their efforts with the Department's ITA. In
         contrast, the one program level ITA that was initiated in FY 1997 had
         the requisite senior management commitment. This effort began with
         the full support and approval of the Program Office Director. The
         program office Information Management (IM) manager stated that a
         successful ITA depends on support from the Office of the CIO and
         senior program management, appropriate levels of funding, and the
         willingness to sacrifice other projects. According to this manager, his
         office was able to initiate a successful architecture effort because it had a
         management that recognized the benefits of an information architecture.
         He added that many other program offices had not assigned the
         necessary funding or staffing resources to implement a successful ITA.

         Executive Committee

         The Executive Committee also had not provided the emphasis or
         support to ensure the development and implementation of a
         Departmentwide and supporting program office architectures. The
         Committee, which functions as the Corporate Information Technology


Page 6                                                           Details of Finding
                        (IT) Investment Board, makes the investment decisions for funding
                        major IT projects. The Board reviews management proposals,
                        authorizes funding, and monitors development and implementation of
                        corporate information systems. Although the Executive Committee
                        Chairman had stated that an architecture was the key to successful
                        management of information technology and recognized the potential for
                        real cost savings was the force behind development of the Act, the
                        Committee did not formally support an ITA implementation schedule or
                        promote the development of architectures at the program office level.
                        Specifically, the development of an ITA plan that includes a schedule,
                        budget, and tracking system is essential to the successful implementation
                        of an ITA. To date, the Committee has not approved an ITA
                        implementation schedule, budget, or system to track implementation.

                               Implementation of An Effective Information Architecture
                                            Needs Resource Investment

                        Progress toward developing and implementing a Departmentwide
                        information architecture has been impeded by funding priority decisions.
                        In the FY 1998 budget, the CIO's office requested $8 million for the
                        Corporate Information Management Program and received $6 million in
                        approved funding. Of the $6 million received, only $460,000 or 8
                        percent of the total amount was applied to the ITA program. This
                        amount was significantly less than the $1.4 million requested for
                        FY 1998 by the ITA program manager to support the architecture and
                        standards program and hindered the CIO's 1997 Information
                        Management Strategic Plan for successful implementation of an
                        architecture. In response to our draft report, management stated that it
                        had increased the total funding of the architecture and standards
                        program to $1.03 million for FY 1998. This amount was about 27
                        percent less than the amount requested by the program manager.


Architecture Benefits   Information architecture is an essential part of the Department's
Not Achieved            Strategic Plan. The Plan's corporate management strategy requires the
                        CIO to integrate a Departmentwide framework for planning, budgeting,
                        evaluating, and implementing information management requirements to
                        reduce costs and improve operations. Specifically, the strategy called
                        for the CIO to implement, by January 1998, a Departmentwide
                        information architecture with supporting standards to foster $100
                        million in cost avoidance over the next 5 years. However, the
                        Department did not realize this Strategic Plan objective with its
                        projected benefits.

Page 7                                                                       Details of Finding
                  Continued delayed implementation of an Information Technology
                  Architecture will prevent the Department and its programs from
                  achieving the following qualitative benefits:

                     • Reduction in the number of redundant software applications and
                       program systems,

                     • Savings in data processing time,

                     • Reduction of duplicate data entries,

                     • Reduction in the time required to reconcile data between
                       disparate systems,

                     • Increased data flexibility,

                     • Improved control over new system development,

                     • Reduction in maintenance costs associated with different
                       systems, and

                     • Reduction in security risk related to reducing the number of
                       systems.


RECOMMENDATIONS   To provide necessary Departmental support for development and
                  implementation of an ITA, we recommend that the Chairperson for the
                  Executive Committee for Information Management:

                  1. Reassess the roles, responsibilities, and authority of the Chief
                     Information Officer to assure conformance with the Clinger-Cohen
                     Act of 1996.

                  2. Require Executive Committee members to formally approve the
                     Departmentwide Information Technology Architecture and an
                     implementation schedule to ensure timely completion of the
                     program.

                  3. Provide the funding necessary to support the successful development
                     and implementation of Departmentwide and program office
                     architectures within the approved program schedule.




Page 8                                               Recommendations and Comments
             4. Consider delaying corporate system development projects until
                Departmentwide ITA implementation is completed.

             5. Ensure that future major systems investment decisions are consistent
                with the approved ITA as required by OMB.

             To provide the leadership necessary to achieve ITA development and
             implementation, we recommend that the Chief Information Officer:

             1. Increase the allocation of resources within the CIO organization to
                assist and support the development and implementation of the
                Departmentwide and supporting program office information
                architectures.

             2. Report the status on the implementation of the Departmentwide and
                program office Information Technology Architectures on a periodic
                basis to the Executive Committee for Information Management.


MANAGEMENT   The Acting Secretary of Energy and the Acting Chief Information
REACTION     Officer prepared a joint management response to our report. They
             generally concurred with the points and recommendations that were
             made in the report. They believe that this audit will assist the Depart-
             ment to achieve a higher degree of attention for its Information
             Architecture and persuade the programs and sites to properly design and
             align their business and information systems. They also felt that because
             significant events have occurred after fieldwork for the audit was
             performed, the weaknesses identified in the report did not constitute a
             material internal control weakness. The Acting Secretary's response and
             specific comments on each of our recommendations are included in
             Appendix 4.


AUDITOR      Management's comments are generally responsive to the
COMMENTS     recommendations. Specifically, management's proposed actions, if
             properly implemented, will improve the management of information
             systems in the Department of Energy.

             In implementing its proposed actions, we suggest that management
             consider the following three points.




Page 9                                         Recommendations and Comments
          • Management's action plan should include milestones for
            implementing information architectures at the program office level.

          • Management needs to not only identify the sources of funding for
            the Departmentwide and program office architectures, but also to
            identify the required and planned level of resources to be
            committed to the architecture effort.

          • The Department should carefully monitor the effectiveness of the
            Acting Chief Information Officer's organizational dual reporting
            responsibilities.

          Although management pointed out that it could not delay corporate
          system development projects until implementation of the
          Departmentwide architecture is completed, they stated that corporate
          systems are currently being evaluated against the published
          architecture. This evaluation and appropriate follow-up actions based
          on the results of those evaluations satisfy the intent of our
          recommendation.

          Regarding management's position as to when the Department had
          implemented the information architecture, we acknowledge that with
          the May 1998 issuance of the Vision document the Department had
          completed publication of the architecture. However, as described in
          the Vision, that document completed the definition phase of the
          architecture and the next phase, expansion and implementation, was
          not planned to begin until mid-Fiscal Year 1998. Furthermore,
          expansion and implementation cannot be achieved without supporting
          program office architectures. As of the date of our draft report, no
          program office had implemented its own information architecture.




Page 10                                  Recommendations and Comments
Appendix 1

              The audit was performed at the Headquarters Forrestal and
SCOPE
              Germantown locations from June 1997 to April 1998.


METHODOLOGY   To accomplish the audit objective, we:

                 • Reviewed Departmental implementation requirements of the
                   Clinger-Cohen Act and Office of Management and Budget
                   Policy Memorandums;

                 • Reviewed published Department information architecture
                   documents and strategic plans;

                 • Held discussions with personnel from the Office of the Chief
                   Information Officer, various Headquarters program office
                   information management managers, and personnel from the
                   Office of Management and Budget;

                 • Examined program office documentation used to support
                   initiating an information architecture;

                 • Evaluated the efforts by the Chief Information Officer to
                   develop, maintain, and facilitate implementation of a
                   Departmentwide Information Technology Architecture; and

                 • Evaluated benefits from implementation of information
                   architectures by the Headquarters program offices.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the audit objective. Because our review was
              limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. We did not
              conduct a reliability assessment of computer-processed data because no
              such data was used during the audit.




Page 11                                                     Scope and Methodology
Appendix 2


          PAST AUDITS RELATING TO INFORMATION MANAGEMENT SYSTEMS


          • Audit of Management Information Systems for Environmental Compliance
            Activities, Office of Inspector General Report Number DOE/IG-0284, dated April
            1990. This report concluded that DOE's many information-gathering systems,
            developed by various offices and contractors, did not meet the Department's needs
            for tracking and reporting on environmental compliance.

          • Status of Efforts to Improve Management Information Systems for Environmental
            Compliance Activities, Office of Inspector General Report Number CR-L-95-21,
            dated June 1995. This report determined that the Department had allowed the
            development and operation of duplicate and overlapping information systems to
            continue in the Environmental Management Program. Because of on-going
            Departmental initiatives supporting the 1994 Information Management Strategic
            Plan and Strategic Alignment Initiative # 39, recommendations were not presented.
            Instead, Department management was informed that this issue would be revisited at
            a later date to assess the effectiveness of these initiatives. However, requirements
            from these initiatives were subsequently replaced with passage of the Act.

          • Energy Lacks Data to Support Its Information System Streamlining Effort, GAO
            Report Number AIMD-96-70, dated July 1996. This report addressed the baseline
            inventory of data on specific systems used by the Department and its management
            and operating contractors. GAO found that the inventory was substantially
            incomplete and lacked sufficient information describing systems' functional
            capabilities. As a result, the inventory would not be adequate to help eliminate
            duplicate information systems as part of the Department's streamlining effort.




Page 12                                                                                     Past Audits
Appendix 3




                     FY 1998 PROGRAM OFFICE INFORMATION
                             MANAGEMENT BUDGETS



          PROGRAM OFFICES                        FY 98 DOLLARS
                                                  (in thousands)

          Energy Information Administration          $60,800
          Chief Information Officer                   14,551
          Environmental Management                    11,939
          Environment, Safety & Health                 9,349
          Energy Research                              7,899
          Energy Efficiency & Renewable Energy         6,486
          Chief Financial Officer                      5,442
          Defense Programs                             4,159
          Fossil Energy                                1,810
          Procurement                                  1,240
          Inspector General                              970
          Nuclear Energy                                 825

          TOTAL                                     $125,470




Page 13                                              Information Management Budgets
Appendix 4

                                          The Secretary of Energy
                                              Washington, DC 20585
                                                  July 2, 1998




  MEMORANDUM FOR GREGORY H. FRIEDMAN
                 ACTING INSPECTOR GENERAL

  FROM:                   ELIZABETH A. MOLER
                          ACTING SECRETARY

  SUBJECT:                 Draft Report on "Review of the U.S. Department of Energy's Information
                            Management System"

  Thank you for the opportunity to review and comment on the subject draft report.

  The Acting Chief Information Officer and I have drafted a joint response to clarify and elaborate on certain
  facts and conclusions. In most instances, we concur with the points and recommendations that have been
  made. However, based on the attached clarifications, and significant events that have occurred since the
  conclusion of the audit, we believe that the weaknesses identified in the draft report do not constitute a
  material internal control weakness as stated therein.

  We appreciate the effort of the Office of the Inspector General in drawing attention to these important
  initiatives. We believe that this audit will assist the Department in achieving a higher degree of attention to its
  Information Architecture and in persuading the programs and sites to properly design and align their
  businesses and information systems.

  If you have any questions regarding this response, please contact Mr. Howard E. Lewis, Jr., Acting Chief
  Information Officer, at (202) 586-0166.

  Attachment




Page 14                                                                              Acting Secretary Comments
 ATTACHMENT

 RECOMMENDATIONS

 To provide necessary Departmental support for development and implementation of an
 Information Technology Architecture (ITA), we recommend that the Chairperson for the
 Executive Committee for Information Management (ECIM):

 1.    Reassess the roles, responsibilities, and authority of the Chief Information Officer to
 assure conformance with the Clinger-Cohen Act of 1996.

 Secretary Pena signed Delegation Order No. 0204-165 to the Chief Information Officer (CIO),
 effective April 21, 1998. The Order specifies various delegated and assigned responsibilities of the
 CIO, based on the Clinger-Cohen Act of 1996. The Order also stipulates that the CIO reports directly
 to the Deputy Secretary, which is consistent with the Act.

 2.    Require Executive Committee members to formally approve the Departmentwide
 Information Technology Architecture and an implementation schedule to ensure timely
 completion of the program.

 The Executive Committee approved the Departmentwide Information Technology Architecture as a
 top priority at its January 27, 1997, meeting. An implementation schedule is being developed for
 presentation at the July ECIM meeting.

 3.    Provide the funding necessary to support the successful development and
 implementation of Departmentwide and program office architectures within the approved
 program schedule.

 We concur that Departmentwide architecture be funded from the Corporate Information Management
 budget and that program office architectures should be funded by the appropriate program. We
 need to share information on architectures from a corporate and program perspective to obtain
 maximum benefit from projects funded.

 4.    Consider delaying corporate system development projects until Departmentwide ITA
 implementation is completed.

 We disagree with this recommendation. As is elaborated on page 3 of this document, there is clear
 evidence that the architecture is being implemented. We are currently evaluating all corporate
 systems against the published architecture. This reinforces the issue of architectural alignment and
 strengthens the ongoing efforts within the CIO Architecture program. In addition, delaying corporate
 system development projects might jeopardize potential enhancements needed to ensure readiness
 for the Year 2000.

 5.    Ensure that future major systems investment decisions are consistent with the
 approved ITA as required by OMB.



Page 15                                                                   Acting Secretary Comments
 We concur that all future major systems investment decisions are consistent with the approved ITA.

 To provide the leadership necessary to achieve ITA development and implementation, we
 recommend that the Chief Information Officer:

 1.     Increase the allocation of resources within the CIO organization to assist and support
 the development and implementation of the Departmentwide and supporting program office
 information architectures.

 With the limited funding for corporate initiatives and infrastructure support, we are supporting the
 architecture as one of our highest priorities. We will strive to find additional funding options for
 supporting architectural initiatives in the future.

 2. Report the status on the implementation of the Departmentwide and program office
 Information Technology Architectures on a periodic basis to the Executive Committee for
 Information Management.

 The CIO is prepared to report on the status of implementation of the Departmentwide and program
 office architectures on a periodic basis to the Executive Committee for Information Management.




Page 16                                                                     Acting Secretary Comments
                                                                          IG Report No. DOE/IG-0423

                                 CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible to our customers' requirements, and, therefore,
ask that you consider sharing your thoughts with us. On the back of this form, you may suggest
improvements to enhance the effectiveness of future reports. Please include answers to the following
questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in
   this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in
   this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name _____________________________            Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                  Office of Inspector General (IG-1)
                                        Department of Energy
                                       Washington, DC 20585

                                      ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                Department of Energy Human Resources and Administration Home Page
                                     http://www.hr.doe.gov/ig

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.

                                   This report can be obtained from the
                                       U.S. Department of Energy
                              Office of Scientific and Technical Information
                                               P.O. Box 62
                                      Oak Ridge, Tennessee 37831
